£

■■S'

'C:

ffSfAL
FILED
OFFICE
OF THE CLERK
Cl ippciyc pqi ip-r , | g

IN THE
SUPREME COURT OF THE UNITED STATES

RANAU

JOHNSON,

— PETITIONER

(Your Name)
vs.
STATE OF OHIO

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

EIGHTH DISTRICT COURT OF APPEALS OF OHIO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

RANAU JOHNSON, #A702-557

(Your Name)
LAKE ERIE CORRECTIONAL INST.
501 Thompson Road/P.O. Box 8000

(Address)
Conneaut,

Ohio 44030

(City, State, Zip Code)
N/A

(Phone Number)

RECEIVED
AUG 2 6 2020
•FFICE OF THE CLERK
SUPREME COURT, U.S.

■1

QUESTION(S) PRESENTED
I.

Can the State Court deprive the Appellant the fundamental
right to effective assistance of Appellate Counsel by denying
an Appellant/Defendant the opportunity to timely amend a
timely filed Ohio Appellate Rule 26(B), Application For
Re-Opening the appeal base on ineffective assistance of
appellate counsel.

Thereby, denying Appellant/Defendant his

constitutional right under the Sixth Amendment of the United
States Constitution to effective assistance of appellate
counsel by not allowing the Appellant opportunity to present
his ineffective assistance of counsel argument in its
entirely?
II.

Whether Appellate Counsel was ineffective for failing to
Argue that Conons of Strict Construction and Due Process
Require the conclusion that the Unit of prosecution for
0. R.C.§ 2909.02(A)(1) is each fire or explosion knowingly
set which results in the required harm?

-ii-

.

LIST OF PARTIES

lx i All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

See the Table of Authorities attached hereto and incorporated
by reference herein.

-iii-

'•V

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

19

CERTIFICATE OF SERVICE

20

INDEX TO APPENDICES
APPENDIX A - Eighth District Court of Appeals of Ohio Opinion
(Sept. 13, 2018)

A-1

APPENDIX B

-A-2 6

E.ighth Di strict Court Of Appeals of Ohio Puling
(August 09, 2019)

APPENDIX C - Ohio Supreme Court ruling declining to accept
jurisdiction of Petitioner's case. (March 17, 2020) A-27

APPENDIX D
APPENDIX E
APPENDIX F

-iv-

<v

TABLE OF AUTHORITIES
Cases
State v. Adams, 43 Ohio St. 3d 67 (1989)

ll

State v. Pless, 74 Ohio St. 3d 333(1996)

13

State v. Ruppert, 54 Ohio St. 2d 263 (1994)...............................

11-13'

State v. Johnson, Cuyahoga App. No. 19-108311. (8th Dist.) ...

7
■ 4-7 *

State v. Johnson, 2018-0hio-3670, 119 N.E. 3d 914 (8th Dist.)
State v. Poelking, 2002-0hio-1655 (8th Dist)...........................
State v. Frazier, 2014-0hio-3025 (4th Dist)..............................

9
J

9,

State v. Linkous, 2013-Ohio-5853 (4th Dist)

9

State v. Keough, 2009-Ohio-6269 (6th Dist)..................

9

State v. Tucker, 2015-0hio-3810 (9th Dist)...................
State v. Haight, 98 Ohio App. 3d 639 (1994) (10thDist.)

18

9

11

Statutes
■8,14
'8,14,15

O.R.C. 1.43.....
O.R.C. 1.47.....

" 4,11

O.R.C. 2903.02
O.R.C. 2909.01
O.R.C. 2909.02
O.R.C. 2923.02

8,13,15,17
4-5,8-9,13-1*
4, 9

Rules
10

Crim. R. 23......
Ohio App. R. 26

^,6,7,10

-v-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fifth Amendment to the United States Constitution provides:
No person shall be held to answer for a capital or otherwise infamous crime, unless on
a presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor
shall any person be subject for the same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty or property, without due process of law; nor shall private
property be taken for public use, without just compensation.

The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defense.

The Fourteenth Amendment to the United States Constitution provides in pertinent part:
Sec. 1. [Citizens of the United States.] All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens of the United States and of
the State wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process of law ; nor
deny to any person within its jurisdiction the equal protection of the laws.

-3-

•X.

rv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
I or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
x[x ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A__to the petition and is Eiqhth District court of Appeals
Opinion.
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the Ohio Supreme Court
appears at Appendix C _to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

r>

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____________________ _
[ ] No petition for rehearing was timely filed in my ease.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ___________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

£3 For cases from state courts:
The date on which the highest state court decided my case was March 17,2020.
A copy of that decision appears at Appendix c___
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
Order List:589 U.S. (Pursuant to COVID-19 public health concerns).

-2-

Note: Petitioner/ Johnson (hereinafter preferred to as Appellant and/or
Johnson).

STATEMENT OF THE CASE AND FACTS
In 2017, Appellant Johnson suffered indictment and conviction (after a bench
trial) for attempted felony murder, under O.R.C. 2923.02, 2903.02(B), (Count One),
for setting fire to an occupied structure; aggravated arson, under O.R.C. 2909.02(A)(2),
for setting fire an occupied structure, (Count Two); and two separate convictions, under
O.R.C. 2909.02(A)(1), for placing the two occupants in the structure at risk of serious
physical harm as a consequence of the fire to the structure, (Counts Three and Four).
See Indictment; journal entry of judgment and sentence, State of Ohio v. Ranau
Johnson, CR-17-61309-A, Cuyahoga Court of Common Pleas, Cuyahoga County,
Ohio. Counsel at arraignment, the court at arraignment, the trial court, defense counsel,
and the prosecutor all informed Appellant Johnson that Count One validly charged
attempted felony murder, and that an eleven-year potential consecutive sentence
attached to Count One alone. Id. at docket.
Prior to trial, Appellant Johnson informed defense counsel (Attorney Mitchell J.
Yelsky) of his desire and intent to engage trial by jury. See Motion to Amend Ohio
App. R. 26(B), affidavit of Appellant Ranau Johnson. On the eve of trial, defense
counsel told Appellant Johnson that the charge of attempted felony murder would
inflame and confuse the jury; and to obtain a fair trial, a bench trial was needed. Id.
Prompted by defense counsel's warning, Appellant Johnson waived his constitutional
right to trial by jury. Id. After a bench trial, Appellant Johnson was convicted on all
counts. Id. at docket; journal entry of conviction and sentence.
-4-

For the conduct convicted, Appellant Johnson suffered an aggregate 27 year
sentence: 10 years for attempted felony murder, ran concurrent with a ten year sentence
for aggravated arson, under Section 2909.02(A)(2); ten years consecutive for
aggravated arson, under Section 2909.02(A)(1), based on the presence of Ms. Satia
Allen in the "occupied structure" unlawfully set ablaze; and ten additional years
consecutive, under Section 2909.02(A)(1), based on the presence of a second occupant
in the "occupied structure" unlawfully set ablaze. Id.
Attorney Donald Butler was appointed for appeal. Attorney Butler challenged
the sufficiency and manifest weight of the evidence, the accuracy and integrity of the
State's expert witness of arson, and the accuracy of the trial court's order of restitution.
Id. On direct appeal, the Eighth District, sua sponte, held Count One to charge a non­
existent offense, (namely, attempted felony murder); denied counsel challenge to the
sufficiency and manifest weight of the evidence; denied counsel's challenge to the
propriety of the expert; sustained counsel's argument concerning restitution, and
remanded for vacatur of Count One and an evidentiary hearing with regard to
restitution. State v. Johnson, 2018-0hio-3670, 119 N.E. 3d 914 (8th Dist.).
On remand, instead of dismissing Count One, the trial court re-merged Counts
One and Two, left Counts Three and Four intact, and reimposed its original 27-year
sentence. Id. at docket. The appeal of the proceeding on remand remains pending. Id.
Armed with the Eighth District's holding that trial and appellate counsel missed such a
significant issue, Appellant Johnson's family hired new counsel, (i.e., counsel
-5-

undersigned), to perfect and perform the appeal from the remand proceeding; and
investigate and brief any other proceedings deemed just. Id. at docket.
After reviewing the records and files, and interviewing Appellant Johnson, trial
counsel, and appellate counsel, counsel undersigned identified constitutional error
which called into question and undermined the trial court's jurisdiction to try and
convict, (namely, an invalid waiver of jury trial). Counsel undersigned also identified
issues relating to, and bolstering, the pro-se App. R. 26(B) issues raised by Appellant
Johnson. Armed with these issues, and supporting affidavits by Appellant Johnson and
trial counsel, counsel undersigned moved the Eighth District for leave to amend
Appellant Johnson's (then pending) timely and initial App. R. 26(B). Motion to amend,
supra. Without opinion, the Eighth District denied leave to amend. Id. at docket. That
same date, the Eighth District denied Appellant Johnson's pro-se claims on their merits.
Id. Counsel undersigned filed a timely motion for reconsideration. Id. at docket. On
November 13, 2019, the motion for reconsideration was denied. Id.
Appellant Johnson timely filed his appeal to the Ohio Supreme Court.
On March 17, 2020, the Ohio Supreme Court declined to accept jurisdiction
of Appellant's Appeal pursuant to S. Ct. Prac. R. 7.08(B)(4).
Pursuant to this Honorable Court's march 19, 2020 Order extending the
time to file a writ of certiorari to 150 days, Johnson now timely files his
writ of certiorari to

this Honorable Court.

-6-

REASONS

FOR

GRANTING

THE

PETITION

PRELIMINARY ARGUMENT:

This case deserves review for four reasons. First, this case provides the needed
opportunity to establish criteria for motions to amend initial and timely motions to
reopen. The Eighth District denied leave to amend without opinion. It is the position
of the State that the 90-day clock of Ohio App. R. 26(B) is absolute: both initial and
amended pleadings must be filed within 90 days of judgment. This is absurd. The text
of App. R. 26(B) does not contain a bar or restriction relating to amendments; and the
constitutional defect intended to be remedied under App. R. 26(B) support a liberal
reading.
Second, this case provides an opportunity for framework for motions to amend
by new appellate counsel, hired after and in connection with a remand on initial appeal,
where new counsel seeks to amend an initial and timely App. R. 26(B) to reflect
constitutional errors by initial appellate counsel which require relief. At the time
Appellant Johnson filed his initial (and timely) App. R. 26(B), Attorney Donald Butler
remained counsel appointed for direct appeal. Upon review, the Eighth District, sua
sponte, vacated Count One, (which charged attempted felony murder), for failing to
charge an offense. State v. Johnson, 2018-0hio-3670, 119 N.E. 3d 914 (8th Dist.).
On remand, the trial court merged Counts One with Count Two, (which charged
aggravated arson), and reimposed the same sentence. The appeal from this amended
judgment remains pending. See State v. Johnson, Cuyahoga App. No. 19-108311.

•> •

Armed with the Eighth District's conclusion that appellate counsel missed a significant
and obvious issue, family members of Appellant Johnson retained new counsel. After
reviewing the record and files, new counsel moved to amend Appellant Johnson's
initial and timely App. R. 26(B) to reflect a second jurisdictional defect missed by
Attorney Butler, and to expand upon the issues initially raised pro-se. The Eighth
District denied leave to amend without opinion. Guidance in this important area is
needed.
Third, this case provides an opportunity to meaningfully determine the unit of
prosecution under O.R.C. 2909.02(A)(1). By conditioning liability, under Section
2909.02(A)(1), upon occurrence of a fire or explosion, the General Assembly
manifested a clear intent to criminalize each fire or explosion knowingly started which
results in a risk of harm to others other than the offender. By its additional use of the
phrase "any person" to qualify the victim, the General Assembly fortified intent to
criminalize each knowingly set fire or explosion that harms a person or a group. O.R.C.
1.43(A). Buttressing the point is R.C. 1.47(C).
Under Section 1.47(C), just and reasonable constructions of criminal statutes are
mandatory and intended. In enacting Section 2909.02(A)(1), the General Assembly
included police officials, firefighters, and emergency medical personnel as qualifying
victims. See R.C. 2909.01(A), (B). Setting the unit of prosecution for Section
2909.02(A)(1) as each knowingly set fire or explosion would produce a fair and just
result. Setting the unit of prosecution on each person who suffers the required risk
-8-

would not.
It is not just or reasonable to assume that the General Assembly intended to
depend the number of counts on the number of firefighters, police officials, emergency
medical personnel, or Red Cross officials who happen to show up and deal with a fire.
Demonstrating the point, liability under Section 2909.02(A)(1) does not depend on the
presence of a person when causing the required fire or explosion; establishing that
Section 2909.02(A)(1) is not a crime against the person. The Eighth District below,
and State v. Poelking, 2OO2-0hio-1655 (8th Dist), both held that the unit of prosecution
under Section 2909.02(A)(1) is each person subjected to risk by an unlawfully set fire.
State v. Keough, 2009-Ohio-6269 (6th Dist); State v. Linkous, 2013-Ohio-5853 (4th
Dist); and State v. Tucker, 2015-0hio-3810 (9th Dist), each hold that the unit of
prosecution for Section 2909.02(A)(1) is each fire or explosion knowingly set. This
case provides a medium to resolve this important split.
Finally, this case presents the opportunity to determine whether O.R.C.
2909.02(A)(1) and (A)(2) are allied offenses of similar import where the "occupied
structure" set ablaze for Section 2909.02(A)(1) purposes is the same structure that
subjected the occupant present to the risk of harm required under Section
2909.02(A)(2); and a single act, engaged under a single state of mind, established both
violations. State v. Frazier, 2014-0hio-3025 (4th Dist), holds that merger is required
in the above circumstance. The panel below held that merger is not required. This split
further renders this case worthy of review.
-9-

LAW

GROUNDS SUPPORTING

AND

pp-APONTNG

A R G U M ENT

pnp

PETITION:

PROPOSITION OFLAWNOLTHE COURT OF APPEALS AND ABUSED ITS
DISCRETION BY denying-retained counsel leave to amend
APPELLANT JOHNSON'S TIMELY PRO-SE APP. R. 26(B).
I.

Motions to amend timely filed motions to reopen are constitutionally
and statutorily permitted.
The text of Ohio App. R. 26(B) does not indicate or suggest that amendments of

timely filed applications are barred. Motions to amend timely applications to reopen
are therefore constitutionally and statutorily permissible.

• =S£E32=S=Ks
court tried Appellant Johnson in absence of jurisdiction.

A. Constitutional and jurisdictional error occurred.
Criminal defendants possess a fundamental constitutional right to trial by jury.
See Ohio Constitution, Article I, Section 5. See also, United States Constitution,
Amendments V, VI, and XIV. Like other fundamental constitutional rights, however,
the right to trial by jury may be waived. Ohio Crim. R. 23(A) provides that cnmmal
defendants may waive their constitutional right to trial by jury, under condition that
the waiver is knowing, intelligent, and voluntary. For a defendant's waiver of the
fundamental right to trial by jury to be knowing, the defendant must understand the

-10-

nature of each charge, and the consequences. State v. Adams, 43 Ohio St. 3d 67, 69
(1989).
If the

record reveals that the defendant was misinformed regarding the nature of

an offense charged, or the consequences, or a feature of the proceeding which qualifies
its lawfulness, a subsequent waiver of the fundamental right to trial by jury may be
constitutionally invalid. State v. Ruppert, 54 Ohio St. 2d 263, 262 (1994); State v.
Haight, 98 Ohio App
was

3d 639, 664-67 (1994). This is such a case. Appellate Johnson

informed by the court at arraignment, arraignment counsel, the trial court, and

defense counsel that Count One validly charged, and that he faced conviction and an
additional eleven-year sentence for, attempted felony murder, in violation of R.C.
2923.02, 2903.02(B).
Under direction of counsel, fear of conviction for attempted felony murder, and
apprehension of the additional eleven-year sentence warned to attach to that count
alone, Appellant Johnson waived his constitutional right to trial by jury. After a bench
on
trial, Johnson suffered conviction and was sentenced to nearly maximum sentences
all counts, including attempted felony murder. On direct review, the Eighth District,
sua sponte, held Count One to charge anon- existent offense. Namely, attempted felony
murder.
Informed that Count One charged a non-existent offense, and that the elevenyear penalty warned of could not and did not legally attach, Appellant Johnson would
have

exercised his fundamental right to trial by jury. A presumption that Appellant
-ll-

notwithstanding the
Johnson would have waived his right to trial by jury
misinformation caused by Count One
Ohio St. 2d at 272, ("Ruppert was
three-judge panel cou

is also impermissible. See Ruppert, supra, 54

misinformed that only a unanimous verdict of a

Id convict him of the offenses if he were to waive his right to jury

of his
trial. Clearly, the defendant was not informed of an important consequence
decision to waive jury trial. Ruppert was not only foregoing the right to be tried before
also waiving the right to a unanimous verdict.
a panel of 12 jurors, but he was
Irrespective

of whether other tactical decisions entered into his decision to waive jury

trial, Ruppert could not have knowingly, intelligently, and voluntarily waived this right
where he was misinformed as to the consequences of his decision of being tried by the
court.").
As in Ruppert, irrespective of whether other tactical considerations entered into
ive trial by jury, he could not have knowingly,
Appellant “Johnson's decision to waive
voluntarily, and intelligently waived this right where he was misinformed regarding
the nature, legality, and consequences of a major offense. Because this misinformation
contributed to Appellant Johnson s
occurred. Ruppert, supra.

decision to waive trial by jury, constitutional error

See also, the due process, equal protection, and effective

d Fourteenth Amendments to the
assistance of counsel clauses of the Fifth, Sixth, an
United States Constitution; Article I, Section 10 to the Ohio Constitution.
In criminal cases, a trial court lacks jurisdiction to try a case absent obtaining a
valid jury trial waiver. State v.

Pless, 74 Ohio St. 3d 333, 339 (1996); Ruppert, supra.
-] ?-

Because Appellant Johnson's invalid waivers of trial by jury deprived the trial court of
jurisdiction to try and convict, appellate counsel's failure to raise the claim was
unreasonable and prejudicial. See also, the due process, equal protection, and effective
assistance of counsel clauses of the Fifth, Sixth, and Fourteenth Amendments to the
United States Constitution; and Article I, Section 10 to the Ohio Constitution.
B. A miscarriage ofjustice results absent correction.
Judgments imposed without jurisdiction are void. The failure to correct a void
judgment would result in a miscarriage of justice. Review is therefore warranted.
PROPOSITION OF LAW NO. 2: APPELLATE COUNSEL WAS INEFFECTIVE
FOR FAILING TO ARGUE THAT CANONS OF STRICT CONSTRUCTION
AND DUE PROCESS REQUIRE THE CONCLUSION THAT THE UNIT OF
PROSECUTION FOR O.R.C. 2909.02(A)(1) IS EACH FIRE OR EXPLOSION
KNOWINGLY SET WHICH RESULTS IN THE REQUIRED HARM.
O.R.C. 2909.02(A)(1) provides that: No person, by means of fire or explosion,
shall knowingly create a substantial risk of serious physical harm to any other person
other than the offender. R.C. 2909.09(A)(1). Section 2909.01(A) provides that "to
'create a substantial risk of serious physical harm to any person' includes the creation
of harm to emergency personnel." R.C. 2909.01(A); Section 2909.02(B) defines the
phrase "emergency personnel" to include: (1) a peace officer; (2) a member of a fire
department or another firefighting agency; (3) a member of a private fire company; (4)
a member of a joint ambulance district or joint emergency medical services district; (5)
an emergency medical personnel technician, paramedic, ambulance operator, or other
member of an emergency medical team; (6) state fire marshal, chief deputy state fire
-13-

marshal, or an assistant fire marshal; (7) fire investigators, fire prevention officers, or
similar investigators; and Section 2909.02(A)(1) encompasses bystanders, neighbors,
and occupants present in an occupied structure. R.C. 2909.01(A), (B); R.C.
2909.02(A)(1).
Under Counts 2 and 3, Johnson stands separately convicted and sentenced, under
Section 2909.02(A)(1), based on his act of setting a single fire, to a single home,
exposing two occupants present to the required risk of harm. Canons of strict
construction, and constitutional precepts of fair warning and due process, require a
conclusion that Johnson engaged a single violation of Section 2909.02(A)(1). The
allowable unit of prosecution for crimes in Ohio is set by the General Assembly. If the
General Assembly fails to set the unit of prosecution with clarity, doubts regarding the
intent of the General Assembly must be resolved in favor of the accused. R.C.
2909.04(A).
By conditioning liability, under Section 2909.02(A)(1), upon occurrence of a
fire or explosion, the General Assembly manifested intent to criminalize each fire or
explosion knowingly started which results in the required harm. By the use of the
phrase "any person" to qualify the victim, the General Assembly manifested intent to
criminalize each fire or explosion knowingly set which subjects any person or group
of persons to the required risk. See R.C. 1.43(A). R.C. 1.47(C) supports this
conclusion.
Under Section 1.47(C), just and reasonable constructions of criminal statutes are

intended. In enacting Section 2909.02(A)(1), the General Assembly included police
officials, firefighters, ambulance drivers, emergency medics, and all other emergency
personnel as qualifying victims. R.C. 2909.01(A), (B). Holding the unit of prosecution
for section 2909.02(A)(1) to be each fire or explosion knowingly started would
produce a just and reasonable result.
It is important to note that liability under Section 2909.02(A)(1) does not depend
on the presence of a person when causing the required fire or explosion. This fact
demonstrates that Section 2909.02(A)(1) is not a crime against the person. Under this
fact, it would be unjust and unreasonable to assume that the General Assembly
intended the number of counts, under Section 2909.02(A)(1), to depend on the number
of firefighters, police officials, emergency medical assistants, medics, ambulance
operators, assistant fire marshals, fire investigators, neighbors, or passers-by who show
up to watch or otherwise respond to a fire and suffer the required risk.
Every arson of an occupied structure will invariably subject multiple people to
the required risk. Every firetruck carries 8 to 12 people. Counting Red Cross workers,
police officials, fire investigators, assistant fire marshals, and emergency medical
personnel who constantly show up, every fire or explosion exposes at least 15 people
to the required risk. Under Section 2909.01(A), as stretched by the State, the 15 or so
people described are victims, per-se. Because the General Assembly has not
manifested intent to authorize 15 or more counts, for each of the 15 or more people
invariably responding, 15 counts would not be authorized.
-1 5-

Bell v. United States, 349 U.S. 81 (1995), is instructive. In Bell, the United States
Supreme Court confronted the issue of whether the simultaneous interstate
transportation of two women in violation of the Mann Act (making unlawful the
interstate transport of "any woman or girl" for immoral purposes) amounted to multiple
crimes or a single offense. Finding the legislative intent ambiguous, the Court held:
"About only one aspect of the problem can one be dogmatic. When Congress has the
will [to define the unit of prosecution] it has no difficulty expressing it. When Congress
leaves the Judiciary the task of imputing to Congress an undeclared will, the ambiguity
should be resolved in favor of lenity." 349 U.S. at 83.
Significantly, in cases in which courts have been found unit of prosecution
ambiguity, the object of the offense has been prefaced by the word "any," which is
defined to encompass (and not exclude) the object of an offense in the plural. Compare
e.g., Ladner v. United States, 358 U.S. 169 (1958)(single discharge of a firearm
wounding two federal officers; held, single crime); United States v. Universal C.I.T.
Credit Corp., 344 U.S. 218 (1952)(wage and hour violations against numerous
employees, over several week period; held, single crime). Section 2909.02(A)(1) is
such a statute.
Because the General Assembly has not set the unit of prosecution for Section
2909.02(A)(1) with clarity, fundamental precepts of fair warning and due process
compel the conclusion that Appellant Johnson engaged a single violation of Section
2909.02(A)(1); and appellate counsel was ineffective for failing to argue the issue. See
-16-

generally, the due process, equal protection, and effective assistance of counsel clauses
of the Fifth, Sixth, and Fourteenth Amendments to the United States Constitution; and
Article I, Section 10 to the Ohio Constitution.
PROPOSITION OF LAW NO. 3: APPELLATE COUNSEL WAS INEFFECTIVE
FOR FAILING TO ARGUE THAT O.R.C. 2909.02(A)(1) AND O.R.C.
2909.02(A)(2) ARE ALLIED OFFENSES OF SIMILAR IMPORT SUBJECT TO
MERGER.
O.R.C. 2909.02(A) provides, in part, that: No person, by means of fire or
explosion, shall knowingly do any of the following: (1) Create a substantial risk of
serious physical harm to any person other than the offender; or (2) Cause physical harm
to an occupied structure.
The phrase "occupied structure" defined in Section 2909.01(C) to include any
house, building, watercraft, aircraft, railroad car, truck, trailer, tent or other portion
thereof, to which any of the following apply: (1) it is maintained as a permanent or
temporary dwelling, even though it is temporarily unoccupied and whether or not any
person is actually present; (2) at the time, it is occupied as the permanent or temporary
habitation of any person, whether or not any person is actually present; (3) at the time,
it is specially adapted for the overnight accommodation of any person, whether or not
any person is actually present; (4) at the time, any person is present or likely to be
present. R.C. 2909.02(A)(2); R.C. 2909.01(C).
Appellant Johnson remains convicted and sentenced, under Sections
2909.02(A)(1) and (2), for his act of causing physical harm to an "occupied structure"
-1. 7 -

by means of fire or explosion; and as a result, exposing two occupants present to the
risk of harm required under Section 2909.02(A)(1).
In determining whether statutory subsections are allied offenses of similar
import , under Section 2941.25(A), the question is whether it is possible to commit one
offense and commit the other with the same conduct, not whether it is possible to
commit one offense without committing the other. If companion subsections can be
violated by the same conduct, courts must determine whether the separate subsections
were violated by the same conduct, (i.e., a single act, committed with single state of
mind). If the answer to both questions if yes, the statutory subsections establish allied
offenses of a similar import and are subject to merger.
Section 2909.02(A) establishes such a scheme. State v. Frazier, 2014-Ohio3025 (4th Dist). According to Frazier, supra, it is possible to violate Section
2909.02(A)(1) and (2), (i.e., cause physical harm or risk of harm to a person and the
structure they are in), with the same conduct, engaged under a single state of mind. If,
by fire or explosion, an offender knowingly causes physical harm to an "occupied
structure," (i.e., any house, building, watercraft, aircraft, railroad car, truck, trailer, tent
in which any person is present), he has violated the terms of Section 2909.02(A)(2).
This is exactly what happened here.
Because Appellant Johnson's act of setting fire to an "occupied structure
simultaneously subjected all persons present and responding to the fire to the required
risk of harm, Appellant Johnson, under a single state of mind, and through a single act,
-18-

violated Sections 2909.02(A)(1) and (2). Under these facts, merger was required; and
appellate counsel performed unreasonably by failing to raise the issue. Because this
issue was a winner, appellate counsel's unreasonable performance was constitutionally
prejudicial. See generally, the due process, equal protection, and effective assistance
of counsel clauses of the Fifth, Sixth, and Fourteenth Amendments to the United States
Constitution; and Article I, Section 10 to the Ohio Constitution.
CONCLUSION

Petitioner-Appellant, Johnson is convicted and sentence for
some very serious crimes herein in which the Petitioner was
sentenced to a twenty-seven (27) year term of imprisonment for
crimes that he did not commit.

Considering the foregoing

arguments , Petitioner has made a substantial showing of the denial
of his constitutional and due process rights under the Fifth,
Sixth and Fourteenth Amendments to the United States Constitution.
Therefore, this instant petition for a writ of certiorari should
be granted in the interest of law, justice, equity and good
conscience and to prevent a manifest miscarriage of justice.
Respectfully submitted,

fotMsuJL Qd*uwr^_

Ranau Johnsdh,#A702--557
Petitioner, pro se
Lake Erie Correctional Inst.
501 Thompson Road
P.O. Box 8000
Conneaut, Ohio 44030
Executed on August

f3 , 2020.

-10-

